         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report


         Evaluation of U.S. Chemical
         Safety and Hazard Investigation
         Board’s Compliance with the
         Federal Information Security
         Management Act (FISMA) for
         Fiscal Year 2005
         Report 2005-2-00030

         September 28, 2005
                        U.S. Environmental Protection Agency                                           2005-2-00030 

                                                                                                  September 28, 2005

                        Office of Inspector General


                        At a Glance 

                                                                           Catalyst for Improving the Environment


Why We Did This Review            Evaluation of U.S. Chemical Safety and Hazard
We sought to determine            Investigation Board’s Compliance with the
whether the U.S. Chemical         Federal Information Security Management Act
Safety and Hazard
Investigation Board’s (CSB)       (FISMA) for Fiscal Year 2005
information security program
complies with the Federal          What We Found
Information Security
Management Act (FISMA) for        The U.S. Chemical Safety and Hazard Investigation Board (CSB) took significant
Fiscal Year 2005.
                                  actions to fill two critical vacancies. The appointments of the Chief Information
                                  Officer and the Information Technology Manager placed much needed attention
Background
                                  on CSB’s information security program. However, the 7- and
                                  5-month delays in the respective appointments hampered CSB’s ability to initiate
The Office of Inspector
                                  actions to address significant deficiencies noted during the Fiscal Year 2004
General (OIG) contracted
                                  Federal Information Security Management Act (FISMA) evaluation.
KPMG, LLP (KPMG) to
                                  Consequently, CSB did not remediate Fiscal Year 2004 weaknesses that are
assist in performing the Fiscal
                                  reported as repeat deficiencies in this year’s evaluation. Although CSB has hired
Year 2005 FISMA
                                  a contractor to assist them in correcting many of the identified weaknesses and
independent evaluation of the
                                  created a timetable to alleviate their vulnerabilities, we found that CSB had not:
CSB information security
program and practices. This
                                  •	 Certified and accredited any of its information systems. In addition, CSB has
evaluation adheres to the
                                     not categorized its information systems in accordance with the National
Office of Management and
                                     Institute of Standards and Technology (NIST) Federal Information Processing
Budget reporting guidance for
                                     Standard 199, nor reviewed using security guidance contained in NIST Special
micro-agencies, which CSB is
                                     Publications 800-26 and 800-53.
considered.
                                  •	 Addressed long-standing weaknesses in implementing security controls such as
                                     completing risk assessments, implementing file and e-mail encryption, and
For further information,             establishing software patch management system. In addition, this year’s
contact our Office of                evaluation identified that CSB needs to make improvements in testing its
Congressional and Public             contingency plans, documenting security configuration standards, completing
Liaison at (202) 566-2391.           e-authentication risk assessments, testing security controls, and performing
To view the full report,
                                     sufficient oversight for its contractor-operated system to ensure the system
click on the following link:         meets FISMA requirements.

www.epa.gov/oig/reports/2005/     •	 Approved its new security incident handling procedures, although some
20050928-2005-2-00030.pdf
                                     components of the procedures are in use.
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                      OFFICE OF 

                                                                                 INSPECTOR GENERAL



                                      September 28, 2005

MEMORANDUM

SUBJECT:              Evaluation of U.S. Chemical Safety and Hazard Investigation Board’s
                      Compliance with the Federal Information Security Management Act
                      (FISMA) for Fiscal Year 2005
                      Report No. 2005-2-00030

FROM:                 Rudolph M. Brevard /s/
                      Acting Director, Business Systems Audits

TO:                   The Honorable Carolyn W. Merritt
                      Chairman and Chief Executive Officer
                      U.S. Chemical Safety and Hazard Investigation Board


Attached is KPMG’s LLP final report on the above subject area. This report synopsizes the
results of information technology security work performed by KPMG on behalf of the U.S.
Environment Protection Agency’s Office of Inspector General (OIG). The report also includes
KPMG’s completed Fiscal Year 2005 FISMA Reporting Template, as prescribed by the Office
of Management and Budget (OMB).

In accordance with OMB reporting instructions, the OIG is forwarding this report to you for
submission, along with your Agency’s required information, to the Director, OMB.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or William Coker at (202) 566-2553
Evaluation Report





 Evaluation of U.S. Chemical Safety and Hazard
   Investigation Board’s Compliance with the
 Federal Information Security Management Act
         (FISMA) for Fiscal Year 2005




                     September 28, 2005
Abbreviations

C&A         Certification and Accreditation

CIO         Chief Information Officer

CSB         United States Chemical Safety and Hazard Investigation Board

EPA         Environmental Protection Agency

FedCIRC     Federal Computer Incident Response Center

FIPS        Federal Information Processing Standard

FISMA       Federal Information Security Management Act

IATO        Interim Authority to Operate

ITM         Information Technology Manager

ISO         Information Security Officer

NIST        National Institute of Standards and Technology

OCFO        Office of the Chief Financial Officer

OIG         Office of Inspector General

OMB         Office of Management and Budget

POA&M       Plan of Action and Milestones

SP          Special Publication
September 28, 2005




Mr. Rudolph M. Brevard
Acting Director for Business Systems Audits
U.S. Environmental Protection Agency
Office of Inspector General
Mail Code 2421T
1200 Pennsylvania Avenue, NW
Washington, DC 20460

Re: Transmittal of the Evaluation of U.S. Chemical Safety and Hazard
Investigation Board’s Compliance with the Federal Information Security
Management Act (FISMA) for Fiscal Year 2005.
Contract No: GS-23F-8127H


Dear Mr. Brevard:

Thank you for providing KPMG LLP (KPMG) with the opportunity to assist the U.S.
Environmental Protection Agency (EPA) Office of Inspector General (OIG) in performing the
evaluation of the U.S. Chemical Safety and Hazard Investigation Board’s (CSB) compliance
with the Federal Information Security Management Act (FISMA) for Fiscal Year 2005.
We are pleased to present our final evaluation report for the CSB’s compliance with FISMA
during Fiscal Year 2005. The delivery of this report concludes our obligations under Purchase
Order number 4W-3271-NBLX. Pursuant to the Purchase Order, we will issue our final invoice
for this engagement.
We have enjoyed working with you and your staff and look forward to continuing to provide the
EPA OIG with quality services. For further information regarding this report, contact the EPA
OIG Office of Congressional and Public Liaison at (202) 566-2391.

Very Truly Yours,
                Table of Contents


Chapters

   1   Executive Summary….………………………………………………………………..2


   2   Results of Independent Evaluation...………....……………………………………5

            Objective 1, Evaluate a Representative Subset of 

            Systems…………...……………………....…………… …..……………….....5 

            Objective 2, Actual Performance by Risk Impact 

            Level………...………………………………..……………………………….…5 

            Objective 3, Oversight of Contractor Systems, and Agency System 

            Inventory….………...…………….……………..………………………………6 

            Objective 4, Plan of Action and Milestones Status..………………….....….7 

            Objective 5, Agency Certification and Accreditation Process..….………...8 

            Objective 6, Agency Wide Security Configuration 

            Policy……………………………………………………………………….…....9 

            Objective 7, Incident Reporting Procedures.……………….………….…..10 

            Objective 8, Security Training and Awareness 

            Program…………………………………………………………………..…....10 

            Objective 9, Peer-to-Peer File Sharing Policy…………...…….…………..10 

            CSB Privacy Program…………………………………………………….…..11 




Appendices
   A   Reporting Requirements for Micro-Agencies…………………………………..12 


   B   Documentation Used for Evaluation……………………………………………..14 

                                   Chapter 1

                               Executive Summary

Introduction
     The Office of Inspector General (OIG) tasked KPMG LLP (KPMG) to assist in
     performing the FY 2005 Federal Information Security Management Act (FISMA)
     independent evaluation of the United States Chemical Safety and Hazard Investigation
     Board’s (CSB) information security program and practices. CSB is a small federal entity
     and as a result, does not have an information security program and related practices
     comparable to those of larger federal entities; this has been taken into account during the
     evaluation.

     To perform the independent evaluation, we requested documentation related to prior CSB
     audits, security evaluations, security program reviews, vulnerability assessments, and
     other reports addressing CSB’s information security program and practices. In addition,
     documentation supporting security training, security-related information technology (IT)
     capital planning efforts, memoranda regarding information security policies, and plans
     for future information security assessments was reviewed. Appendix B of this report lists
     the documents reviewed as part of this evaluation. Through inspection of the
     documentation received and inquiry with CSB personnel, we evaluated CSB’s progress in
     meeting Office of Management and Budget’s (OMB) FISMA performance measures.

Reporting Requirements
     OMB has issued FISMA reporting guidance for “micro-agencies”, which OMB defines
     as an agency with fewer than 100 employees. CSB meets the OMB criteria for a micro-
     agency and the required reporting template is included at Appendix A. In addition, the
     EPA OIG requested that KPMG review the CSB information security program in more
     detail than required for the FISMA micro-agency reporting guidance. Consequently, this
     report contains additional details on our observations regarding CSB’s information
     security program.

Results in Brief
     The CSB IT department underwent significant changes during FY 2005. An Information
     Technology Manager (ITM), the CSB equivalent to an Information Security Officer
     (ISO), was appointed in March 2005, filling a vacancy that existed in that position since
     October 2004. Additionally, during FY 2005, CSB appointed a Chief Information
     Officer (CIO). Although filling these key security positions were positive steps, the
     delays in making these appointments hampered CSB’s ability to addresses significant



                                             - 2 -

deficiencies noted in the FY 2004 FISMA evaluation, which consequently resulted in the
occurrence of these significant deficiencies in the FY 2005 FISMA review.

Under the direction of the CIO and the ITM, CSB hired a contractor to assist the Agency
in correcting many of the identified security weaknesses. CSB’s aggressive action has
resulted in tangible steps to mitigate most of the FY 2005 deficiencies by the end of the
calendar year. Below is the status of CSB’s significant deficiencies and additional details
are in Chapter 2:

•	 OIG-IT-01 – Security Certification and Accreditation (C&A). Although CSB
   issued an Interim Authority to Operate (IATO) for its three systems, CSB had not
   certified or accredited their systems. Additionally, CSB had not categorized its
   systems in accordance with National Institute of Standards and Technology (NIST)
   Federal Information Processing Standard (FIPS) 199, or reviewed the systems using
   security guidance contained in NIST Special Publications 800-26 and 800-53. CSB
   officials indicated that the Agency would complete this task by the end of the
   calendar year after the installation of new servers and the assessment of other
   identified weaknesses. In addition, CSB indicated that the ITM would complete the
   required NIST 800-26 self-assessment by end of FY 2005.

•	 OIG-IT-02 – Security Control Implementation. CSB has not addressed prior year
   security control implementation significant deficiencies. These include the lack of a
   complete IT risk assessment, lack of technical security controls such as file and e-mail
   encryption, and lack of an agency-wide software patch management system.

   During the FY 2005 FISMA evaluation, we identified the following additional issues
   that contribute to CSB’s significant deficiency around security control
   implementation:

       ¾ CSB has not tested its contingency plan within the past year;
       ¾ A documented security configuration policy for CSB networks has not been
         implemented;
       ¾ E-Authentication risk assessments have not been conducted;
       ¾ Two of the three CSB systems have not had their security controls tested
         within the past year; and
       ¾ CSB did not perform sufficient oversight for its contractor systems to ensure
         the systems meet FISMA requirements.

   CSB officials concurred with the findings in this area and took steps to address many
   of the significant deficiency. CSB obtained contractor support to: (1) review some of
   the FY 2004 findings and (2) provide recommendations on mitigating the weakness.
   CSB officials provided action plans to mitigate weaknesses in its Annual Self-
   Assessment, Risk Assessment, Technical Security Controls, and Patch Management
   processes by October 2005. CSB also indicated the Agency would update security
   plans by December 2005. In addition, with the implementation of a new system
   infrastructure, CSB indicated it would complete the update of its contingency plans by



                                        - 3 -

   March 2006. Although CSB provided steps for improving its e-authentication risk
   assessment and oversight of contractor system process, CSB did not indicated when it
   would complete these activities.

•	 OIG-IT-03 – Security Training. During FY 2005, CSB implemented a security
   awareness-training program for its employees, thereby, eliminating a long-standing
   significant deficiency reported in the FY 2003 and FY 2004 FISMA evaluations.
   However, CSB’s security-awareness training does not include information regarding
   peer-to-peer file sharing. In response to this finding, CSB indicated it would address
   this weakness in a separate notification to all staff and update the security-awareness
   training material.

•	 OIG-IT-04 – Security Program Management. CSB was without a formally
   appointed ITM from October 2004 through March 2005. During that time, the
   required FISMA Plan of Action and Milestones (POA&M) was not submitted to
   OMB. Additionally, CSB had not prioritized the weaknesses identified in the
   POA&M, which is a key step for addressing the weaknesses. CSB concurred with
   this finding and indicated the Agency prioritized the weaknesses in its September
   2005 POA&M submission to OMB.

•	 OIG-IT-05 – Security Incident Handling. CSB has not approved its incident
   handling procedures. During FY 2005, CSB developed new procedures for incident
   handling, but had not approved the procedures. CSB concurred with this finding and
   indicated it would approve the new procedures by October 31, 2005.




                                       - 4 -

                                            Chapter 2
                           Results of Independent Evaluation
                     Objective 1

                     Evaluate a representative subset of systems, including information systems
                     used or operated by an agency or by a contractor of an agency or other
                     organization on behalf of an agency. By FIPS 199 risk impact level (high,
                     moderate, low, or not categorized) and by bureau, identify the number of
                     systems reviewed in this evaluation for each classification below.

                                                                     Total Number of Agency
                              FIPS 199 Categorization                and Contractor Systems      Number Evaluated
                                                                  Agency Systems
                       Not Categorized                                           2                        0
                                                                 Contractor Systems
                       Not Categorized                                           1                        0
                       Total Systems Not FIPS 199
                       Categorized                                             3                           0

                     CSB has not categorized their three systems according to the FIPS 1991
                     criteria, nor has CSB evaluated the systems against NIST Special Publication
                     800-262 or 800-533. To their credit, CSB management has contracted out the
                     tasks needed to complete the FIPS 199 categorization. For FY 2006, CSB
                     plans to consolidate the three systems into one general support system (GSS).
                     Finding OIG-IT-01

                     Objective 2

                     Identify actual performance in FY 05 by risk impact level and bureau.
                     From the representative subset of systems evaluated, identify the number
                     of systems which have completed the following: have a current
                     certification and accreditation, a contingency plan tested within the past
                     year, and security controls tested within the past year.



1
  FIPS 199, Standards for Security Categorization of Federal Information and Information Systems, sets standards
for security categorization of information and information systems through the use of standardized security
objectives and ranking criteria.
2
  NIST SP 800-26, Security Self-Assessment Guide for Information Technology Systems, provides an extensive
questionnaire containing specific control objectives and techniques against which an unclassified system or group of
interconnected systems can be tested and measured.
3
  NIST SP 800-53, Recommended Security Controls for Federal Information Systems, provides guidelines for
selecting and specifying security controls for information systems supporting the executive agencies of the federal
government.


                                                        - 5 -

                  Security category                     Total Number        Number Reviewed
     Total number certified and accredited                    0                    0
     Total number with controls evaluated                     1                    0
     Total number with contingency plan tested                0                    0

Although all of CSB’s three systems have an IATO, none of the systems have
been certified and accredited. The IATO authorization covers a two-year
period from September 30, 2004. CSB has obtained contractor support to help
address these issues. At the time of our FY 2005 FISMA evaluation, the
contractor was in the process of conducting a security control evaluation
assessment for the systems, which is a key element of a C&A. Finding OIG
IT-01

Additionally, CSB has not evaluated the security controls on two of its three
systems nor had CSB tested its contingency plan within the past year. Finding
OIG-IT-02

Objective 3

Evaluate the agency’s oversight of contractor systems, and agency system
inventory.

             Evaluate the status of the following                       Results:
    a. The agency performs oversight and evaluation to
    ensure information systems used or operated by a         No formal evaluations have
    contractor of the agency or other organization on        been conducted on CSB
    behalf of the agency meet the requirements of FISMA,     contractor systems or
    OMB policy and NIST guidelines, national security        information security controls
    policy, and agency policy.                               and processes.
    b. The agency has developed an inventory of major
    information systems (including major national security
    systems) operated by or under the control of such        CSB maintains a complete list
    agency, including an identification of the interfaces    of all systems, including those
    between each such system and all other systems or        operated by contractors. CSB
    networks, including those not operated by or under the   has no national security
    control of the agency.                                   systems.
                                                             OIG agrees with the CIO’s
                                                             classification of systems and
                                                             is aware of efforts to
    c. The OIG generally agrees with the CIO on the          consolidate systems into one
    number of agency owned systems.                          GSS.
    d. The OIG generally agrees with the CIO on the
    number of information systems used or operated by a
    contractor of the agency or other organization on
    behalf of the agency.                                    Yes
    e. The agency inventory is maintained and updated at
    least annually.                                          Yes.


                                - 6 -

              Evaluate the status of the following                       Results:
                                                               No E-authentication risk
    f. The agency has completed system e-authentication        assessments have been
    risk assessments.                                          conducted.

The CSB ITM currently performs oversight for the Recommendation and
Technical Solution System. Contractors administer and maintain this system
and report directly to the CSB ITM. However, CSB does not oversee and
evaluate the system to ensure compliance with FISMA requirements. Finding
OIG-IT-02

CSB has consolidated its IT inventory into a Microsoft Access database. Using
the database, CSB has the ability to query specific IT equipment. CSB updates
the access database at least annually and when any changes/deletions are
needed.

CSB has notified the EPA OIG of the number of systems operational at CSB,
and the EPA OIG is in agreement with the number of systems. CSB
management has proposed to consolidate the three current systems into one
GSS and the OIG concurs.

Objective 4

Assess whether the agency has developed, implemented, and is managing
an agency wide plan of action and milestone (POA&M) process.

              Evaluate the status of the following                        Results:
                                                               Yes. The CSB POA&M
                                                               process appears to be an
                                                               agency wide process that has
                                                               incorporated all known IT
                                                               security weaknesses. The
                                                               CSB POA&M contains
                                                               weaknesses, points of contact
                                                               (POCs), required resources,
     a. The POA&M is an agency wide process,                   scheduled completion dates,
    incorporating all known IT security weaknesses             milestones, milestone
    associated with information systems used or operated       changes, how the weakness
    by the agency or by a contractor of the agency or other    was identified, and the status
    organization on behalf of the agency.                      of weaknesses.
                                                               Yes. All IT security
    b. When an IT security weakness is identified, program     weaknesses identified by the
    officials (including CIOs, if they own or operate a        program officials are
    system) develop, implement, and manage POA&Ms              incorporated and managed by
    for their system(s).                                       the CSB POA&M.
                                                               Yes. Contractors report
    c. Program officials, including contractors, report to     weekly and the remaining
    the CIO on a regular basis (at least quarterly) on their   Program Officials and
    remediation progress.                                      Contractors report directly to



                                  - 7 -

              Evaluate the status of the following                    Results:
                                                            CSB security management,
                                                            who reports to the CIO.
                                                            Yes. CSB tracks, maintains,
    d. CIO centrally tracks, maintains, and reviews         and reviews POA&M
    POA&M activities on at least a quarterly basis.         activities on a quarterly basis.
                                                            Yes. CSB’s POA&M
                                                            identifies where the
                                                            weaknesses were identified
    e. OIG findings are incorporated into the POA&M         and clearly states which were
    process.                                                found by the OIG.
                                                            No. The CSB POA&M
                                                            process does not prioritize the
                                                            IT security weaknesses. CSB
    f. POA&M process prioritizes IT security weaknesses     management explained that
    to help ensure significant IT security weaknesses are   all of the IT security
    addressed in a timely manner and receive appropriate    weaknesses are addressed
    resources.                                              concurrently.

The ITM is responsible for the development, implementation, and management
of the agency wide FISMA POA&M process. The ITM utilizes the POA&M
to ensure that control weaknesses, from prior audits/reviews, are addressed and
corrected. The ITM, in coordination with the CIO, develops, implements, and
manages POA&Ms for the CSB systems. Although CSB is required to report
its POA&M progress to OMB on a quarterly basis, CSB last submitted a
POA&M to OMB in March 2004. The lack of timely POA&M submissions is
because CSB did not fill the ITM position between October 2004 and March
2005.

The POA&M is the authoritative agency management tool used to identify and
monitor agency security weaknesses. CSB has an updated POA&M and uses it
for tracking corrective actions. Inspection of the current POA&M and
discussions with the ITM showed that CSB had not prioritized its IT security
weaknesses on the POA&M. Consequently, CSB may not timely address
critical weaknesses. In response to this finding, CSB indicated the Agency had
prioritized the weaknesses in its September 2005 POA&M submission to
OMB. Finding OIG-IT-04

Objective 5

Assess the overall quality of the agency’s C&A process.

As stated in the FY 2003 and FY 2004 CSB FISMA evaluations, CSB’s
systems have not been fully certified and accredited. During the course of FY
2004 and 2005, CSB issued an IATO for each of its systems, which authorizes
the systems to operate for the period of two years from September 30, 2004. In
addition, CSB has obtained contractor assistance to support its certification and
accreditation (C&A) efforts. At the time of our FY 2005 FISMA evaluation,


                                 - 8 -

the contractor had completed the initial task of conducting a server audit to
support the C&A process; however, the process is not complete. Finding
OIG-IT-01

Objective 6

Evaluate the status of the following:
    a. Is there an agency wide security configuration policy?
    b. Identify which software is addressed in the agency wide security
       configuration policy. In addition, approximate the extent of
       implementation of the security configuration policy on the systems
       running the software.

CSB does not currently have an agency wide security configuration policy. In
addition, CSB has not implemented an agency-wide software patch
management program and has hired a contractor to correct this deficiency.

During our vulnerability test of CSB’s external and internal network
infrastructure, we noted the following:

•	 Externally, CSB has implemented a fail-over firewall configuration to filter
   out unnecessary network traffic. This firewall mitigates most risks
   originating from the Internet. However, we noted several vulnerabilities on
   CSB’s external web servers that could be used to gain unauthorized access.
   This occurred because CSB had not:

    ¾ updated system software with the latest patches/fixes, or

    ¾	 disabled unnecessary services/program features.

•	 Internally, our testes identified vulnerabilities that could possibly lead to
   unauthorized access. This occurred because CSB had not:

    ¾	 updated system software with the latest patches/fixes,

    ¾ secured blank system administration account passwords on 

      workstations, or 


    ¾	 removed obsolete accounts from the CSB network. For example, we
       identified 11 user accounts where the user has not logged-on in more
       than 180 days. Finding OIG-IT-02




                              - 9 -

Objective 7

Evaluate the degree to which the following statements reflect the status:
    a. The agency follows defined policies and procedures for reporting
       incidents internally.
    b. The agency follows defined policies and procedures for external
       reporting to law enforcement authorities.
    c. The agency follows defined procedures for reporting to the Federal
       Computer Incident Response Center (FedCIRC) as established by
       US-CERT. http://www.us-cert.gov.

CSB’s incident reporting program requires the ITM to be informed after: 1) a
security violation has occurred, or 2) if the user suspects that there has been a
security violation. CSB’s main incident reporting process follows US-CERT
criteria. CSB has not approved its incident reporting process, but plans to
approve the process and procedures during FY 2006.

During FY 2005, CSB had one computer incident related to malicious code.
CSB did not notify US-CERT or any external reporting authority because the
malicious code was not widespread across the agency. Finding OIG-IT-05

Objective 8

Has the agency ensured security training and awareness of all employees,
including contractors and those employees with significant IT security
responsibilities?

During FY 2005, CSB implemented a security awareness-training program for
its employees, thereby, eliminating a long-standing significant deficiency
reported in the FY 2003 and FY 2004 FISMA evaluations. However, the
training material does not include information regarding peer-to-peer file
sharing. Additionally, at the time of our FY 2005 FISMA review, CSB’s ITM
did not have adequate security training to perform his duties. However, the
ITM has registered for several IT security classes and seminars for early in FY
2006.

Objective 9

Does the agency explain policies regarding peer-to-peer file sharing in IT
security awareness training, ethics training, or any other agency wide
training?

As previously stated, CSB’s security training materials do not currently contain
information on peer-to-peer file sharing. To mitigate this deficiency, CSB
official indicated the Agency would prepare a separate notification for current
employees, and will include specific guidance on peer-to-peer file sharing in
updated security awareness documentation.


                              - 10 -

CSB Privacy Program

OMB encourages IGs to provide any meaningful data they have regarding
the agency's privacy program and related activities.

CSB has not developed any privacy specific processes or programs.
Accordingly, the OIG has not received any meaningful data and therefore is
not able to provide any privacy results for FY 2005.




                           - 11 -

                                                                                        Appendix A

U.S. Chemical Safety and Hazard Investigation Board
                FY05 FISMA Report 


                 Micro Agency Reporting Template - IG or Independent Evaluator.

This template should be used by micro-agencies (less than 100 employees) to report to OMB on
 FISMA Compliance. This template should be submitted to OMB (fisma@omb.eop.gov) no later
 than October 7, 2005, in accordance with OMB Memo M-05-15 "FY 2005 Reporting Instructions
    for the Federal Information Security Management Act and Agency Privacy Management."

   If a micro-agency does not have an IG, Section C requirements should be completed by an
                                    independent evaluator.

   Please attach any reports or observations from the independent assessment at the time of
                                 template submission to OMB.



              Name of Agency: U.S. Chemical Safety and Hazard Investigation Board
                                      Date: 09/28/2005


Agency systems:                                                                             2
Number of agency systems evaluated - by FIPS-199
categorization (high impact, medium impact, low impact, or not
yet categorized)                                                 High Impact:               0
                                                                 Moderate Impact:           0
                                                                 Low Impact:                0
                                                                 Not yet categorized:       2
Of those systems evaluated, number of agency systems certified
and accredited, by FIPS-199 categorization                       High Impact:               0
                                                                 Moderate Impact:           0
                                                                 Low Impact:                0
                                                                 Not yet categorized:       0
Of those systems evaluated, number of agency systems with
security controls tested FY05, by FIPS-199 categorization        High Impact:               0
                                                                 Moderate Impact:           0
                                                                 Low Impact:                0
                                                                 Not yet categorized:       0
Of those systems evaluated, number of agency systems with
tested contingency plans, by FIPS-199 categorization             High Impact:               0
                                                                 Moderate Impact:           0
                                                                 Low Impact:                0
                                                                 Not yet categorized        0




                                                - 12 -

                 Micro Agency Reporting Template - IG or Independent Evaluator.

This template should be used by micro-agencies (less than 100 employees) to report to OMB on
 FISMA Compliance. This template should be submitted to OMB (fisma@omb.eop.gov) no later
 than October 7, 2005, in accordance with OMB Memo M-05-15 "FY 2005 Reporting Instructions
    for the Federal Information Security Management Act and Agency Privacy Management."

   If a micro-agency does not have an IG, Section C requirements should be completed by an
                                    independent evaluator.

   Please attach any reports or observations from the independent assessment at the time of
                                 template submission to OMB.



              Name of Agency: U.S. Chemical Safety and Hazard Investigation Board
                                      Date: 09/28/2005



Contractor systems:                                                                     1
Number of contractor systems evaluated, by FIPS-199
categorization (high impact, medium impact, low impact, or not
yet categorized)                                                 High Impact:           0
                                                                 Moderate Impact:       0
                                                                 Low Impact:            0
                                                                 Not yet categorized:   1
Of those systems evaluated, number of contractor systems
certified and accredited, by FIPS-199 categorization             High Impact:           0
                                                                 Moderate Impact:       0
                                                                 Low Impact:            0
                                                                 Not yet categorized:   0
Of those systems evaluated, number of contractor systems with
security controls tested FY05, by FIPS-199 categorization        High Impact:           0
                                                                 Moderate Impact:       0
                                                                 Low Impact:            0
                                                                 Not yet categorized:   1
Of those systems evaluated, number of contractor systems with
tested contingency plans, by FIPS-199 categorization             High Impact:           0
                                                                 Moderate Impact:       0
                                                                 Low Impact:            0
                                                                 Not yet categorized:   0

Number of weaknesses identified in POA&M:                                               10
Number of weaknesses reported corrected as of 09/28/05:                                  1




                                                - 13 -

                                                      Appendix B

Documentation Used for Evaluation
 1. CSB IT Security Plan
 2. CIO Appointment Memo for Anna Johnson
 3. ISO Appointment Memo for Charlie Bryant
 4. Charlie Bryant Resume and Job Description
 5. DN American Draft Statement of Work for CSB
 6. CSB Staff Directory
 7. Draft Computer Security Awareness Training
 8. Draft Incident Reporting Policy and Procedures
 9. Draft Incident Response Policy and Procedures
 10. Federal Incident Reporting Guidelines
 11. Interim Authority To Operate (IATO) for CSB’s Three Systems
 12. CSB Information Technology Contingency Plan
 13. Spectra 10000 Information
 14. DN American Server Audit
 15. IT Department Inventory
 16. POA&M, dated July 15, 2005 and POA&M Submission Email
 17. Network Topology
 18. CSB Agency Structure Chart
 19. Sample of Windows XP Configuration Checklists
 20. Draft Computer Security Employee Acknowledgement Form
 21. Scheduled Training Courses for Charlie Bryant
 22. N-Stealth External Scan Against CSB.gov
 23. N-Stealth Internal Scan Against Exchange Email Server
 24. Vulnerability Assessment Work Paper and Results
 25. CSB 2004 IT Capital Plan
 26. DN American Weekly Report




                   - 14 -

